<html>
<title> - AFGHANISTAN AND PAKISTAN: ACCOUNTABILITY COMMUNITY OVERSIGHT OF A NEW INTERAGENCY STRATEGY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





 AFGHANISTAN AND PAKISTAN: ACCOUNTABILITY COMMUNITY OVERSIGHT OF A NEW 
                          INTERAGENCY STRATEGY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 9, 2009

                               __________

                           Serial No. 111-119

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                 _____

                  U.S. GOVERNMENT PRINTING OFFICE
  64-916 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      LYNN A. WESTMORELAND, Georgia
JIM COOPER, Tennessee                PATRICK T. McHENRY, North Carolina
GERALD E. CONNOLLY, Virginia         BRIAN P. BILBRAY, California
MIKE QUIGLEY, Illinois               JIM JORDAN, Ohio
MARCY KAPTUR, Ohio                   JEFF FLAKE, Arizona
ELEANOR HOLMES NORTON, District of   JEFF FORTENBERRY, Nebraska
    Columbia                         JASON CHAFFETZ, Utah
PATRICK J. KENNEDY, Rhode Island     AARON SCHOCK, Illinois
DANNY K. DAVIS, Illinois             BLAINE LUETKEMEYER, Missouri
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     DAN BURTON, Indiana
CHRIS VAN HOLLEN, Maryland           JOHN L. MICA, Florida
PAUL W. HODES, New Hampshire         JOHN J. DUNCAN, Jr., Tennessee
CHRISTOPHER S. MURPHY, Connecticut   MICHAEL R. TURNER, Ohio
PETER WELCH, Vermont                 LYNN A. WESTMORELAND, Georgia
BILL FOSTER, Illinois                PATRICK T. McHENRY, North Carolina
STEVE DRIEHAUS, Ohio                 JIM JORDAN, Ohio
STEPHEN F. LYNCH, Massachusetts      JEFF FORTENBERRY, Nebraska
HENRY CUELLAR, Texas                 ------ ------
MIKE QUIGLEY, Illinois
                     Andrew Wright, Staff Director






                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 9, 2009................................     1
Statement of:
    Fields, Major General Arnold, retired, Special Inspector 
      General for Afghanistan Reconstruction; Gordon Heddell, 
      Inspector General, Department of Defense; Donald Gambatesa, 
      Inspector General, U.S. Agency for International 
      Development; Harold Geisel, Inspector General, Department 
      of State; and Jacquelyn Williams-Bridgers, Managing 
      Director, International Affairs and Trade, Government 
      Accountability Office......................................     9
        Fields, Major General Arnold.............................     9
        Gambatesa, Donald........................................    57
        Geisel, Harold...........................................   107
        Heddell, Gordon..........................................    30
        Williams-Bridgers, Jacquelyn.............................   117
Letters, statements, etc., submitted for the record by:
    Fields, Major General Arnold, retired, Special Inspector 
      General for Afghanistan Reconstruction:
        Article dated August 31, 2009............................    11
        Prepared statement of....................................    22
    Gambatesa, Donald, Inspector General, U.S. Agency for 
      International Development, prepared statement of...........    59
    Geisel, Harold, Inspector General, Department of State, 
      prepared statement of......................................   109
    Heddell, Gordon, Inspector General, Department of Defense; 
      Donald Gambatesa, Inspector General, U.S. Agency for 
      International Development..................................    32
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts:
        SIGAR Audit-09-5 Commander's Emergency Response Program..   159
        Prepared statement of....................................     5
    Williams-Bridgers, Jacquelyn, Managing Director, 
      International Affairs and Trade, Government Accountability 
      Office, prepared statement of..............................   120

 
 AFGHANISTAN AND PAKISTAN: ACCOUNTABILITY COMMUNITY OVERSIGHT OF A NEW 
                          INTERAGENCY STRATEGY

                              ----------                              


                      WEDNESDAY, SEPTEMBER 9, 2009

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:33 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Murphy, and Quigley.
    Staff present: Adam Hodge and Catherine Ribeiro, 
communications directors; Mariana Osorio, Daniel Murphy, Ken 
Cummings, and Robyn Russell, legislative assistants; Andy 
Wright, staff director; Elliot Gillerman, clerk; Talia Dubovi 
and Scott Lindsay, counsels; Brendan Culley and Steven Gale, 
fellows; Dan Blankenburg, minority director of outreach and 
senior advisor; Adam Fromm, minority chief clerk; Seamus Kraft, 
minority deputy press secretary; Tom Alexander, minority senior 
counsel; Christopher Bright, minority senior professional staff 
member; Lieutenant Glenn Sanders, minority Defense fellow; and 
Bob Bordon, minority general counsel.
    Mr. Tierney. Good morning, everyone. A quorum being 
present, the Subcommittee on National Security and Foreign 
Affairs' hearing entitled, ``Afghanistan and Pakistan: 
Accountability Community Oversight of a New Interagency 
Strategy,'' will come to order.
    Before we begin the hearing, I would just like to quickly 
address one piece of business that is left over from the 
subcommittee's June 6, 2009 hearing that was entitled, ``U.S. 
Contributions to the Response to Pakistan's Humanitarian 
Crisis: The Situation and the Mistakes.'' After that hearing, I 
received a request of the U.S. Agency for International 
Development to submit a statement for the record. I would note 
that USAID received an invitation to submit a statement prior 
to the hearing but declined to do so. However, given the 
relevance of their statement to the subject matter of the 
hearing, I ask unanimous consent that the hearing record be 
reopened, USAID statement be submitted for the record, and that 
the hearing record then be reclosed. Without objection, so 
ordered.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. And without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record. Without objection, so ordered.
    So once again, good morning to everybody here. I've already 
explained to the people on our panel that I'm sure there is no 
sign of disrespect from Members to the people that are kind 
enough to come and testify, and that those Members that don't 
get here to the hearing will certainly read the testimony for 
the record and the transcript afterwards. But I know that at 
least on the Democratic side, there is a caucus going on, as I 
indicated, probably some discussion about health care if I'm 
not mistaken. So we just want to express that.
    In other words, the hearing today probably couldn't be more 
timely than it is, because in the coming days the commanding 
general in Afghanistan, Lieutenant General Stanley McChrystal, 
is expected to request that President Obama provide significant 
additional numbers of troops for our effort there.
    Meanwhile in the coming weeks, Congress will consider final 
passage of a bill to triple U.S. aid to Pakistan to almost 
$1\1/2\ billion a year. In short, the United States is on the 
verge of doubling down on a commitment of troops and treasure 
to Afghanistan and Pakistan.
    As we have learned in Iraq, however, a sudden increase in 
conflict resources exponentially increases the likelihood of 
waste, fraud and abuse. Unfortunately, some of our programs in 
Afghanistan and Pakistan to date have been flawed and have 
lacked basic accountability measures. For example, last year 
the subcommittee and the Government Accountability Office 
conducted major investigations of the Coalition Support Funds 
Program by which the United States reimburses Pakistan for 
expenses it incurs in certain counterterrorism operations. This 
program has represented the bulk of the U.S. aid to Pakistan in 
the past 7 years, some $6.7 billion to date.
    The investigations found that there were no receipts for a 
significant portion of the U.S. reimbursements to Pakistan and 
that the program lacked basic accountability provisions. 
Further, the reimbursement program isn't really designed to 
improve the Pakistani military's capabilities for 
counterterrorism and counterinsurgency operations.
    In Afghanistan in January 2009, the Government 
Accountability Office report brought attention to the 
significant lack of accountability for 242,203 small arms 
provided to the Afghan National Security Forces. The Department 
of Defenses Combined Security Transition Command in Afghanistan 
[CSTC-A], could not provide records, did not track serial 
numbers, or could not locate a significant portion of the 
weapons provided. In addition, the report drew attention to the 
inability of the Afghan National Security Forces to safeguard 
those weapons.
    While we are at a crossroads in U.S. policy here in 
Washington, DC, it appears that we are also at a crossroads on 
the ground in Afghanistan and Pakistan. Trends in Afghanistan 
have not been good. The Taliban is resurgent from Kandahar to 
Kunduz. Three weeks ago, Afghanistan held presidential and 
provincial elections in the middle of this deteriorating 
security situation. The results of that election are not final, 
but there are credible reports of widespread fraud. Any cloud 
over the legitimacy of Afghanistan's President would add a 
sense of insecurity that threatens international efforts there.
    In Pakistan, the story is more mixed. After years of 
inconsistent attention to the threat posed by extremist 
militants, Pakistan civilian leadership and military forces 
seem to have gathered the resolve necessary to confront the 
challenges they face. They harnessed the political will and 
manpower to retake the Swat Valley and the adjoining areas of 
the Malikan region. Many Pakistani soldiers paid the ultimate 
sacrifice during this campaign. Unfortunately it stalled at the 
border of south Waziristan, by all accounts a hotbed of 
militancy, including senior al Qaeda leadership.
    The killing last month of Baitullah Mehsud was a 
significant development, but it must be followed by concerted 
efforts by the Pakistanis themselves to bring security and to 
reassert the authority and services of their government in 
these troubled regions.
    In Afghanistan, the United States and international 
reconstruction and aid efforts face a daunting challenge trying 
to rebuild a war-torn country in the midst of active 
insurgency.
    In Pakistan, security challenges and political 
sensitivities currently restrict inspectors general from the 
mobility, access and presence necessary to do the task.
    The principal question guiding today's hearing is whether 
the accountability community is prepared to ramp up its own 
efforts to mirror the massive increase in resources that the 
United States will devote to Pakistan and Afghanistan in the 
coming years.
    Frankly, I have serious concerns about the community's 
collective ability to provide comprehensive oversight coverage 
that keeps pace with the rapid boom in U.S. activities in the 
region, especially given the enormous burdens already borne by 
those offices.
    The threshold challenge they face is security. After 
numerous trips to Afghanistan and Pakistan, I'm acutely aware 
of the strict limits imposed on personnel in country. However, 
a sustained physical presence in Afghanistan and Pakistan is 
crucial to establishing the relationships necessary to receive 
tips of waste, fraud and abuse. Three-week rotations are not 
enough to establish the informal interactions that can provide 
vital information about flawed and fatal activities.
    Another concern I have is the accountability community's 
coverage of the U.S. aid to Pakistan. Security challenges in 
Pakistan make U.S. aid efforts all the more vulnerable to 
waste, fraud and abuse. In particular, I have serious questions 
regarding oversight coverage of aid efforts in the Northwest 
Frontier province and the Federally Administered Tribal Areas.
    Finally, I would like all the panelists' thoughts on 
Ambassador Eikenberry's call to ``Afghanize'' more of our aid 
efforts in order to build Afghan Government capacity.
    How will the U.S. Government accountability community 
navigate its role in overseeing such aid programs? We count on 
the inspectors general and the GAO as bulwarks against waste, 
fraud and abuse. Especially in these difficult economic times, 
we must demand absolute transparency and accountability for 
every last taxpayer dollar. Thank you.
    [The prepared statement of Hon. John F. Tierney follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. With that, I will ask Mr. Flake for his 
opening remarks.
    Mr. Flake. I thank the chairman. I want to mention also 
that Republicans are caucusing as well. I apologize. Both of us 
have to slip away. But I have the same concerns as the chairman 
with regard to the oversight community's ability to police and 
to make sure that there isn't significant waste, fraud and 
abuse.
    I think with the backdrop here of a commitment to step up 
our troop levels there, with what Michael Mullen and others 
have described as a serious and deteriorating situation in 
Afghanistan, makes this kind of hearing very important to see 
what safeguards are in place and if you have the resources and 
the tools to ensure that our money is being well spent. So with 
that, I look forward to hearing the witnesses.
    Mr. Tierney. Thank you. The subcommittee will now receive 
testimony from the panel before us today. I will give a brief 
introduction of each of the panelists, and thankfully it is 
brief, because if we really read all of your credentials, it 
would probably take up the rest of the hearing.
    We have a very distinguished panel here today that has been 
doing great service to the country, which we appreciate, and we 
understand also the difficulty of what you're asked to do.
    To my far left is Major General Arnold Fields, who serves 
as the Special Inspector General for Afghanistan Reconstruction 
[SIGAR]. From 2007 to 2008, he served as the Deputy Director of 
the Africa Center for Strategic Studies in the Department of 
Defense. He retired from the U.S. Marine Corps in 2004 and 
previously served as the Deputy Commander of the Marine Corps 
forces in Europe. General Fields holds a B.S. from South 
Carolina State University and an M.A. from Pepperdine 
University.
    Mr. Gordon Heddell serves as the Inspector General for the 
Department of Defense. From 2001 to 2009, he served as the 
Inspector General at the Department of Labor. Prior to this 
position, he served in the U.S. Secret Service for 29 years, 
where he worked as the assistant director leading the Secret 
Service's inspection in internal affairs programs worldwide. 
Mr. Heddell holds a B.A. from the University of Missouri and an 
M.A. From the University of Illinois.
    Mr. Donald Gambatesa, serves as the Inspector General of 
the U.S. Agency for International Development and concurrently 
holds this position at the Millennium Challenge Corp. and the 
U.S. Africa Development Foundation and the Inter-American 
Foundation. Prior to this post, Mr. Gambatesa served as the 
Deputy Director of the U.S. Marshals Service. He previously 
spent 24 years as a Special Agent in the U.S. Secret Service 
and he holds a B.A. From John Carroll University.
    Ambassador Harold Geisel serves as the Acting Inspector 
General for the Department of State. From 2002 to 2003, he 
served as the head of delegation for negotiations for the 
People's Republic of China on the construction of new 
embassies. Prior to assuming this post, he served for more than 
25 years in the U.S. Foreign Service. He holds a B.A. From John 
Hopkins University and an M.S. From the University of Virginia.
    Ms. Jacquelyn Williams-Bridgers serves as the Managing 
Director of International Affairs and Trade in the U.S. 
Government Accountability Office. From 2002 to 2004, she led 
the strategic planning and external liaison unit in the 
Government Accountability Office. Prior to this position, she 
served as the Inspector General of the U.S. Department of State 
and the U.S. Arms Control and Disarmament Agency and the U.S. 
Information Agency and the Broadcasting Board of Governors.
    I want to thank you all again for being witnesses here 
today and making yourselves available with your substantial 
expertise. As you all know, it is the policy of this committee 
to swear witnesses in before they testify. So I ask you to 
please stand and raise your right hands. If there is anybody 
else that will be testifying with you, I ask that they also do 
the same.
    [Witnesses sworn.]
    Mr. Tierney. The record will indicate that all the 
witnesses answered in the affirmative. I do tell you that all 
of your written statements will be put on the record. I know 
some of you were kind enough to file extensive written 
statements. You needn't feel compelled to stick just to that. 
We're happy to have comments for 5 minutes, if we can, and then 
we will go to questions and answers. So why don't we start with 
you, General? Thank you again for being here.

  STATEMENTS OF MAJOR GENERAL ARNOLD FIELDS, RETIRED, SPECIAL 
   INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION; GORDON 
   HEDDELL, INSPECTOR GENERAL, DEPARTMENT OF DEFENSE; DONALD 
  GAMBATESA, INSPECTOR GENERAL, U.S. AGENCY FOR INTERNATIONAL 
 DEVELOPMENT; HAROLD GEISEL, INSPECTOR GENERAL, DEPARTMENT OF 
  STATE; AND JACQUELYN WILLIAMS-BRIDGERS, MANAGING DIRECTOR, 
  INTERNATIONAL AFFAIRS AND TRADE, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

            STATEMENT OF MAJOR GENERAL ARNOLD FIELDS

    General Fields. Good morning, Chairman Tierney, Ranking 
Member Flake, and other members of this subcommittee. Thank you 
very much for inviting me to participate at this hearing. In 
keeping with our mandate which focuses on Afghanistan, my 
opening remarks this morning will be provided accordingly.
    I have provided a written statement and I wish to at this 
time highlight a few of the elements of that statement. As the 
newest organization at this table, it was less than a year ago 
that SIGAR obtained funding. We continue to aggressively build 
our organization to conduct reviews of our reconstruction 
projects and to provide findings and recommendations that will 
serve the Congress and the administration appropriately.
    Congress has appropriated about $38 billion since 2002 to 
rebuild Afghanistan. The President's fiscal year 2010 budget 
request includes additional funding for Afghanistan, which 
would bring funding for Afghanistan to about $50 billion 
through 2010. Together with my colleagues at this table, SIGAR 
certainly is committed to providing the oversight needed to 
prevent waste, fraud and abuse, and to promote the effective 
implementation of the reconstruction program in Afghanistan.
    We are members of the Southwest Asia Joint Planning Group 
and its Pakistan/Afghanistan Subcommittee on Afghanistan and 
Pakistan, which serve as forums for coordinating our work. I 
want to stress that we do coordinate. Also in our 
investigations work, we collaborate with the National 
Procurement Task Force and the International Contract 
Corruption Task Force.
    SIGAR has grown from an office of 2 to an office of 46, 
with an additional 17 prospective employees in the pipeline. We 
have offices in Arlington, VA, and in Afghanistan, where we 
have offices in Kabul. Today, 12 personnel are located at the 
Embassy in Kabul, and we are leaning toward 20, which we have 
negotiated by way of the NSDD process with the Ambassador and 
the Department of State.
    We have personnel or office space in several other 
locations in Afghanistan, including Bagram Airfield, as well as 
Kandahar Airfield; Bagram, the province of Parwan, and 
Kandahar, the province of Kandahar.
    While growing, we have watched closely as the U.S. 
Government has developed and expanded policy in Afghanistan. 
And I wish to note the extraordinary work of Ambassador 
Holbrooke who recently testified before this very committee. He 
has consistently highlighted the importance of oversight in the 
new Afghanistan-Pakistan strategy.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    General Fields. Over the past several months, SIGAR has met 
regularly with senior government officials in both Washington 
and Afghanistan. In Kabul, we have attended the meetings at the 
Embassy. We have also built a strong network among the 
agencies, the international community, and the military 
components throughout Afghanistan. These meetings, together 
with our ongoing work, help us monitor the administration's 
development of a new approach in Afghanistan. And, of course, 
we are using this information as a basis to adapt and expand 
our oversight plans.
    We work continuously with members of the oversight 
community to make sure that oversight work is coordinated and 
not duplicative; targets the highest priority areas; aims to 
produce positive change; and does not overburden the U.S. 
civilian and military personnel who are implementing the 
reconstruction programs.
    We are keenly aware that it is our job to find and document 
waste, fraud and abuse with the express purpose of working to 
improve the U.S. assistance program and identify wrongdoers. 
Likewise, we are poised to identify lessons learned.
    Our mission is difficult. It has taken time to hire staff 
capable and willing to do this work in a dangerous environment; 
however, we have made considerable progress. As of last week, 
we have issued four mandated quarterly reports to this Congress 
and five audit and inspection reports, each with 
recommendations for improved processes and corrective action. 
Another three draft reports are currently at the agencies for 
comment as we speak. We have 21 ongoing audits and inspections 
and we expect to issue 5 or more reports before the end of this 
month.
    SIGAR's investigative work has resulted in over $4 million 
in cost avoidance in one case and the guilty pleas of two 
people offering $1 million in bribes for contracts in another. 
Our investigators are working 25 other active cases as we 
speak. Our work has identified problems with contract 
oversight, the lack of integrated information on reconstruction 
activities and concerns with sustainment capacity.
    The impact of oversight cannot be measured solely by 
statistics. We believe that being on the scene is a real 
deterrent to waste, fraud and abuse. We also operate a hotline 
giving U.S. coalition partners and the Afghan citizens various 
methods by which to report allegations of waste, fraud and 
abuse related especially to the reconstruction efforts. The 
hotline has produced a number of credible leads that we, of 
course, are pursuing.
    We are working hard to produce and provide the robust 
oversight substantial for the successful implementation of 
reconstruction programs in Afghanistan. And I welcome your 
questions there unto pertaining. Thank you.
    Mr. Tierney. Thank you, sir.
    [The prepared statement of General Fields follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Mr. Heddell.

                 STATEMENT OF GORDON S. HEDDELL

    Mr. Heddell. Chairman Tierney, Ranking Member Flake and 
members of the subcommittee, thank you for the opportunity to 
appear before you this morning.
    Mr. Chairman, oversight in Southwest Asia, with emphasis on 
Afghanistan and Pakistan, is one of my top priorities. It is my 
goal to ensure the health, safety and the welfare of our troops 
and to ensure that taxpayer dollars are being spent wisely.
    Our current efforts include increased oversight by 
enhancing our in-theater presence and ensuring comprehensive 
and effective interagency coordination. The oversight we 
provide through audits, investigations, inspections and 
assessments truly make a difference, especially in such an 
unstable and dangerous region where Department of Defense 
operations and troop levels are increasing.
    Earlier this year, President Obama announced a 
comprehensive new strategy to disrupt, dismantle and defeat al 
Qaeda in Pakistan and Afghanistan, and to prevent their return 
to either country in the future. This strategy will involve 
several departments and agencies in our government.
    We have conducted oversight on Pakistan in 2003 and again 
in 2009, and started oversight efforts in Afghanistan in 2004. 
And we are increasing our resources in the region to ensure 
proper oversight and staffing in regard to the new strategy and 
the buildup of U.S. forces and programs in Afghanistan.
    To support our oversight, we have established field offices 
in strategic locations in Southwest Asia. We also utilize an 
expeditionary work force model to support our efforts. This 
helps facilitate timely reviews and reporting of results while 
minimizing disruption to the warfighter.
    Our central field office in the region is located at Bagram 
Airfield. With the support and endorsement of the Commander of 
U.S. Central Command, we have staffed new offices in Kandahar 
and Kabul with 14 deployed personnel, 6 investigators and 8 
auditors.
    In addition, our staff travel as needed for field work in 
Afghanistan. Currently there are five auditors and two 
engineers, for instance, on temporary travel in Afghanistan. 
And I will be traveling there myself in the near future to meet 
with General McChrystal and other commanders in theater.
    I have created a new key position within the DOD Office of 
Inspector General to ensure that there is effective 
coordination and communication within the oversight community 
within Southwest Asia. This position, the Special Deputy 
Inspector General for Southwest Asia, will report directly to 
me and act on my behalf to coordinate and deconflict oversight 
efforts.
    The DOD IG is the lead oversight agency for accountability 
in the Department. For Southwest Asia, including Afghanistan 
and Pakistan, there are three critical coordination and 
planning mechanisms: the Southwest Asia Joint Planning Group, 
the Comprehensive Oversight Plan for Southwest Asia, and our 
many investigative task forces.
    In addition, in May 2009, the Joint Planning Group 
established a new subcommittee to coordinate audit and 
inspection work solely in Afghanistan and Pakistan. This 
subcommittee, chaired by the Inspector General for the U.S. 
Agency for International Development, Mr. Gambatesa, issued in 
August 2009 the Afghanistan-Pakistan Comprehensive Oversight 
Plan.
    I thank the committee for the opportunity to discuss our 
ongoing efforts and I look forward to continuing our strong 
working relationship with Congress and all oversight 
organizations engaged in Afghanistan and Pakistan.
    Mr. Tierney. Thank you very much.
    [The prepared statement of Mr. Heddell follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Mr. Gambatesa.

                STATEMENT OF DONALD A. GAMBATESA

    Mr. Gambatesa. Good morning, Chairman Tierney, Ranking 
Member Flake, members of the committee. Thank you for inviting 
me here to testify today on behalf of the Office of the 
Inspector General for the U.S. Agency for International 
Development. I'm pleased to be here along with my colleagues 
from other oversight organizations with whom we work closely as 
we execute our audit inspection and investigative 
responsibilities in Afghanistan and Pakistan.
    Historically my office has overseen programs in these 
countries from our regional office in the Philippines, 
increasing our staffing levels there as USAID funding in 
Afghanistan and Pakistan have increased. We recently 
established a full-time presence of Foreign Service officers in 
these countries, placing an auditor and a criminal investigator 
in Kabul and two auditors and a criminal investigator in 
Islamabad. These employees will be in addition to those 
currently providing oversight from our office in the 
Philippines.
    We also have a request for three additional positions in 
Afghanistan. To date in Afghanistan, we have conducted 27 
program performance audits in which we have made 84 
recommendations for operational improvement of USAID programs. 
Moreover, we have issued nearly 30 financial audits that have 
identified more than $8 million in questioned costs of which 
$1.3 million was sustained.
    In addition to conducting audit, we investigate allegations 
of fraud and waste in these countries. In Afghanistan, we have 
opened 44 investigations that have resulted in 8 indictments, 9 
arrests and 3 convictions and savings and recoveries have 
totaled $87 million.
    I want to mention just two of our recent investigations 
involving security contracts in Afghanistan. In one, a 
defendant pled guilty to conspiracy this past week for his role 
in a scheme to solicit kickbacks in connection with the 
awarding of private security contracts. In another 
investigation, four individuals and a security company they 
worked for were indicted after they obtained reimbursement for 
fraudulent expenses. The company and the individuals charged 
have also been suspended indefinitely from doing business with 
the government. One former employee is serving a 2-year 
sentence and more than $24 million has been saved in connection 
with this investigation.
    In Pakistan, since 2002 we have conducted five program 
performance audits and made 12 recommendations for program 
improvements. Our 23 financial audits conducted in Pakistan 
identified approximately $6 billion in questioned costs, of 
which $3.5 billion was sustained, and we have several ongoing 
investigations in Pakistan.
    We in the oversight community have been working diligently 
for several years to coordinate our oversight activities in 
Afghanistan. Our criminal investigators work closely with the 
National Procurement Task Force, which was established by the 
Department of Justice to identify and prosecute fraud 
associated with government contracting. We are also members of 
the International Contract Corruption Task Force and 
Interagency Law Enforcement Group that coordinates contract and 
procurement fraud investigations in high-risk international 
locations such as Iraq and Afghanistan.
    A new coordination group which Mr. Heddell mentioned, which 
we chair, was formed in June 2009 in response to the 
administration's focus on Afghanistan and Pakistan. This 
subgroup of the Southwest Asia Planning Group consists of 
representatives from the organizations you see with me here 
today. The Afghanistan-Pakistan subgroup issued an oversight 
plan in August 2009. I have submitted a copy of the plan with 
my written testimony and ask it be made part of the record.
    This plan corresponds to the strategies developed by the 
U.S. Government for assisting Afghanistan and Pakistan in 
addressing high-priority issues. The five areas addressed in 
the plan are security, governance, rule of law, human rights, 
economic and social development, contracting oversight and 
performance and cross-cutting programs. The subgroup will 
monitor this plan and make adjustments as necessary during 
quarterly meetings.
    The members of the Afghanistan-Pakistan subgroup have been 
working together to address oversight in this region for 
several years and I'm confident that we are effectively 
coordinating with one another to provide the best oversight 
possible. I want to emphasize, however, that oversight is a 
shared responsibility--that of the inspector general community 
and the agencies we oversee, as well as the contractors and 
grantees who implement foreign assistance programs. We must all 
be vigilant to ensure that tax dollars are not wasted.
    Thank you again for inviting me here to testify. I look 
forward to answering your questions.
    [The prepared statement of Mr. Gambatesa follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you.
    Mr. Tierney. Ambassador Geisel.

                 STATEMENT OF HAROLD W. GEISEL

    Mr. Geisel. Chairman Tierney, Ranking Member Flake, members 
of the subcommittee, thank you for inviting me to discuss the 
Department of State OIG oversight plan and our coordination and 
planning efforts with other IGs to provide oversight of U.S. 
resources and projects in Pakistan and Afghanistan. I also led 
this office from 1994 to 1995 and am very pleased with the 
significant increase in oversight that OIG is conducting around 
the world. The State Department OIG is an original member of 
the Southwest Asia Joint Planning Group responsible for 
coordinating the work of IGs active in this broad geographic 
region.
    This past spring, the Pak-Af subgroup was formed to better 
focus on oversight related to Pakistan and Afghanistan. I'm 
pleased to report the Pak-Af subgroup is working quite well. In 
addition to formal regularly scheduled monthly meetings, 
members take part in weekly and sometimes daily discussions. We 
are acutely aware of the difficulties in working in Pakistan 
and Afghanistan and the burden that our staffs can place on 
U.S. personnel working in those countries; therefore, we are 
committed to avoiding redundancy and maximizing our 
effectiveness.
    Let me begin with Pakistan. Our Middle East Regional 
Office, MERO, will conduct a review this fall of the current 
management control environment at Embassy Islamabad in 
anticipation of a significant increase in funding and program 
implementation during the next 5 years. MERO will assess risk 
and vulnerability associated with achieving current and new 
program objectives. Our plan is to use this risk and 
vulnerability assessment to drill down and conduct more 
thorough examinations of those programs and activities 
designated as most vulnerable to waste, fraud and abuse. As we 
learned from Iraq assistance programs in 2004 and 2005, 
effective management controls are needed at the initial stages 
of assistance implementation.
    Additionally, in 2008, MERO completed the review with a 
Fulbright program in Afghanistan. Our Office of Inspections 
will conduct a full post inspection of Embassy Islamabad in 
calendar year 2010. Post inspections thoroughly cover every 
aspect of Department activity managed by the Embassy. In 
August, OIG and Embassy Islamabad agreed to have MERO open a 
five-person office at the Embassy to monitor Department 
programs. Our auditors and analysts will be stationed in 
Pakistan, supplemented as needed with additional OIG staff to 
provide the necessary oversight. MERO has effectively used this 
staffing model at Embassy Baghdad and plans to open a similar-
sized office at Embassy Kabul this month. We expect to have our 
MERO office in Pakistan to open in early 2010 as funding levels 
permit.
    Now I will talk about Afghanistan. Our Office of 
Inspections will be in Kabul this October inspecting the 
mission, and should issue a report later in 2009. About 12 
inspectors, including a highly experienced team leader a former 
Ambassador will conduct the post inspection of all mission 
aspects, including contracting, mission programs, consular 
affairs, security and protection. Additionally, the Office of 
Inspections will issue a report later this month on the 
Department's demining program in Afghanistan.
    In August we released a MERO report covering the 
performance of U.S. Training Center, formerly Blackwater, under 
the terms of its Afghanistan contract. MERO also is 
participating in joint State-DOD audit of the Afghan national 
police training and mentoring program. They will report at the 
end of this year.
    Looking forward to 2010, MERO plans to work on a number of 
Department-funded programs, including the following: refugees 
and internally displaced programs, public diplomacy and the 
Embassy's Guard forces.
    Regarding investigations: In 2009, we created the Middle 
East Investigative Branch to conduct investigations in support 
of the Department's expanding Middle East and South Asia 
missions. MEIB's primary mission is to respond to criminal 
allegations and support investigative activities concerning 
Department programs, employees, and contractors from Pakistan 
to Morocco, with focused concentration on high-value, high-risk 
areas of Iraq, Pakistan and Afghanistan.
    To date, six criminal investigators are assigned to MEIB, 
with five posted overseas and one in Arlington, Virginia. We 
can move our personnel easily from these forward bases in the 
region, as needed, to Islamabad, Kabul, or other priority 
posts.
    We plan to increase MEIB staff at current posts, adding one 
in Baghdad, and one in Amman, as 2011 funding permits. In 2010, 
we plan to add two staff to MEIB based in D.C. MEIB completed 
construction and staffing of its Cairo office in 2009.
    During fiscal year 2009, MEIB's investigative activities in 
Afghanistan include six open investigations and four 
preliminary inquiries, covering a number of alleged criminal 
violations.
    The committee asked how we would plan our oversight should 
the pending bills for increased foreign assistance to Pakistan 
provide an additional 1\1/2\ billion each year over 5 years. 
There is clear congressional intent for an in-country presence 
by OIGs in Pakistan. We've been staffing Kabul and Islamabad 
with temporary deployments, and we'll increase staff there as 
necessary. Successful funding either way will gratefully 
improve our financial position for our office in Islamabad 
which opens in 2010.
    The priorities set in the current bill--governance, 
economic development and investing in people-could touch on a 
number of State programs that we oversee and some that we share 
with the USAID-OIG. This includes rule of law, international 
narcotics and law enforcement, education and cultural affairs, 
and democracy, human rights and labor.
    Thank you for the opportunity to present this information 
to you today. I would be happy to answer any questions.
    Mr. Tierney. Thank you, Ambassador.
    [The prepared statement of Mr. Geisel follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Ms. Williams-Bridgers.

            STATEMENT OF JACQUELYN WILLIAMS-BRIDGERS

    Ms. Williams-Bridgers. Chairman Tierney and Mr. Flake and 
members of the subcommittee, thank you very much for inviting 
me to testify to discuss our oversight in Afghanistan and 
Pakistan alongside my colleagues in the accountability 
community.
    Since 2003, GAO has issued more than 30 reports and 
testimonies on U.S. efforts to disrupt, defeat and destroy 
terrorism in Afghanistan and Pakistan. Our work has identified 
the need for greater attention on issues such as the 
development of a comprehensive interagency plan for Pakistan, 
building the Afghan national security forces, accountability 
over billions of U.S. assistance to Afghanistan and Pakistan, 
contract management and oversight of contractors and U.S. 
counter narcotics efforts.
    GAO's past work has recommended specific improvements 
needed in U.S. efforts that should be considered in the 
administration's future strategic planning and implementation. 
GAO found that several existing conditions such as worsening 
security, poor infrastructure and the limited institutional 
capacity of the Afghan Government continue to create challenges 
for U.S. efforts to assist with securing, stabilizing and 
rebuilding Afghanistan and combating terrorism in Pakistan.
    To address these challenges, GAO has recommended that 
State, DOD and USAID improve their planning, enhance 
interagency coordination, and increase police mentors for 
training the ANP.
    As you noted in your opening statement, Mr. Tierney, we 
have also recommended increased oversight of weapons provided 
to the ANSF and the coalition support funds provided to 
Pakistan.
    We also reported on the need for improvements in contract 
management and the numbers of oversight personnel with 
experience in contingency operations.
    Recently, the administration announced a new integrated 
civilian military campaign plan for Afghanistan, and we 
understand that the plan for Pakistan is being completed. State 
and DOD have coordinated their plans for Afghan National 
Security Force capacity building. In addition, DOD has taken 
steps to improve accountability for weapons provided to 
Afghanistan and coalition support funds provided to Pakistan.
    GAO has several ongoing reviews addressing a wide range of 
issues such as the deteriorating condition in Afghanistan, 
building the Afghan Army, U.S. contracting, and creating 
sustainable development programs in both countries. Like our 
colleagues in the accountability community, GAO works to 
improve the performance and accountability of government.
    GAO's authority, of course, extends beyond single 
departments or agencies in order to provide assistance and 
support to the Congress to make informed policy and funding 
decisions across government. GAO's policy and agency protocols 
require us to coordinate our oversight with other members of 
the accountability community, and we enjoy a very good working 
relationship with them.
    For example, as a member of the Subgroup of Southwest Asia, 
a joint planning group, GAO meets quarterly with the IGs and we 
submit our ongoing work for publication and respective 
documents. In addition to these more formal consultations, we 
regularly communicate with colleagues in various offices to 
ensure our work is coordinated and overlap is minimized.
    Inevitably, however, in developing our audit plans, we 
often find that our planned work is quite similar in scope. 
Given the statutory mandates of our respective organizations to 
conduct audits and evaluate programs and activities that 
involve multiple agencies, the overlap in our planning is not 
surprising. However, we find that through the coordination 
groups, we have enjoyed fluid communication that occurs across 
our office, and we are able to deconflict and avoid potential 
overlap.
    We have enjoyed particularly a very strong working 
relationship with SIGAR as it has stood up its organization 
over the past year. That is not surprising since many of the 
employees of SIGAR are former employees of GAO and my team in 
particular.
    U.S. personnel face enormous challenges working in 
Afghanistan and Pakistan. The security situation limits their 
movements and their ability to monitor projects, and the surge 
of civilian and military personnel has strained housing and 
other logistical supports. It is in that environment that GAO 
and our colleagues in the audit community enter our Embassies 
and our military bases in Afghanistan and Pakistan. As such, we 
work to minimize the burden that oversight places on program 
management staff. However, with additional U.S. resources and 
attention focused by this Congress and this administration on 
Afghanistan and Pakistan, there should be additional oversight 
to ensure accountability of U.S. efforts.
    GAO relies on testimonial evidence, documentation, as well 
as onsite verification to conduct our work. GAO has visited 
Afghanistan and Pakistan over 10 times in the past 2 years to 
ensure the integrity of our own work. Nevertheless, we have 
faced some challenges in conducting oversight in-country due to 
the unstable security environment and the limited housing 
available to temporary duty travelers. We take steps to 
mitigate these limitations by taking advantage of opportunities 
to meet with key officials in more secure locations and when 
individuals travel to Washington. We also, whenever possible, 
take advantage of technologies such as video conferencing.
    To enhance our ability to conduct our work, however, GAO 
has established a steady presence in Iraq. We have been there 
since January 2008. We have three staff that are stationed 
there on a 6-month rotational basis. This has proved invaluable 
to our ability to conduct oversight in Iraq.
    With the challenges confronting the U.S. Government for a 
successful drawdown in Iraq, and the significant increase in 
troop presence and resources planned to execute our new 
strategy in Afghanistan and Pakistan, GAO has recently 
initiated an assessment to determine our requirements in the 
region as a whole. We plan to explore several options, 
including alternative TDY locations in Afghanistan and 
Pakistan.
    In closing, we recognize that carrying out oversight 
responsibilities in insecure areas will never be easy or 
without risk. As importantly, we recognize that the men and 
women, both civilian and military, serving our country there 
endure hardships and risks to perform the work critical to 
achievement of our national security and foreign policy goals. 
My colleagues at this table and I know that we must be 
judicious in our presence and mindful of any unintended 
additional burden on our diplomats and service personnel.
    GAO stands ready to assist the Congress in its oversight 
efforts and will continue to closely coordinate with our 
colleagues in the accountability community. I stand ready to 
answer any questions you may have.
    Mr. Tierney. Thank you.
    [The prepared statement of Ms. Williams-Bridgers follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. I appreciate all of your opening statements, 
which were significant in their content as well, but I'm 
stricken by the fact that people watching this right now are 
thinking we are all accountants, we are all auditors. And we 
sound like it sometimes. It is unmistakable that we have to do 
this to cover the ground.
    You've described very well the organizational structures 
that you have and the cooperative efforts that you're making, 
but I haven't heard a lot about investigative strategy. And I 
would like you all to comment on that a little bit. I'm 
thinking it goes beyond the 5 years that the President 
identified. You all said you're going to take a look at those. 
What is the strategy there? What type of investigations are 
your high priority? Are you worried about implementation? Are 
you worried about results? What about stability? What is the 
priority on that? What are you going to attack? What is the 
strategy going on that basis?
    I know that in one of the testimonies it was conversation 
about training and reconstruction, obviously. But what takes 
priority and what are we really focusing on and how do you 
establish or assess where you're going to go for the fraud, 
waste and abuse? So we start in the middle there with Mr. 
Gambatesa.
    Mr. Gambatesa. From an audit standpoint----
    Mr. Tierney. You probably have to push that button again.
    Mr. Gambatesa. Sir, you mentioned investigations. But are 
you referring to both audit and investigations or basically our 
overall plan? I guess in the simplest terms, I can say that we 
follow the money. Wherever the large programs are, we gear our 
audit to those areas.
    Mr. Tierney. So you focus--if there is a lot of money going 
into one area, that is the principal consideration? Nothing 
else? Not the impact of the program on security, or the impact 
of the program on development or whatever? It is basically just 
where the money is. That is your----
    Mr. Gambatesa. Well, it is really a combination. We only 
have so many people to do it. So we try to focus on the largest 
impact both from a financial standpoint and what is important 
to the government.
    Mr. Tierney. I'm going to get back to you on that in terms 
of personnel. Ambassador.
    Mr. Geisel. Well, we have--I think we all have a common 
situation that we are both planning and reacting. So if you're 
talking about investigations, criminal investigations, most of 
the time we are reacting to information that we have obtained. 
You have seen some of it in----
    Mr. Tierney. I understand that. I don't mean to cut you 
short. Let us talk about those things that you take the 
initiative, those things that you go in with a design on that, 
and tell us what your strategy is there, what your priorities 
are.
    Mr. Geisel. Exactly. And like my colleague has said, some 
of it is going where the money is, but a lot of it is looking 
for where it is the most impact, where we see great risk to the 
United States. And that is not always where the most money is.
    We also do one other area which is very important and that 
is inspections. And the good thing about inspections is that we 
can be much more open. We can take a much broader point of 
view. Most of the work is actually publicized. And in both 
Afghanistan next month and in Pakistan early next year, we will 
be using large teams of investigators--inspectors, I should 
say--to develop leads, if you will, leads on the ground to work 
with Embassy management and other Embassy staff to figure out 
where we are going. They are the obvious bureaus that we are 
going after, the drugs and thugs, if you will. But a lot of it 
is going to be looking for ourselves and then saying this is 
where we want to go.
    Mr. Tierney. Mr. Heddell.
    Mr. Heddell. Yes, sir. The Department of Defense, Defense 
Criminal Investigative Service, I think is playing a major role 
in Southwest Asia. In fact, I would go so far as to say it is a 
leadership role. And it is about impact. The days of 
statistical results don't make a lot of difference anymore; it 
is about impact.
    And for instance, the high impact work today isn't done by 
one criminal investigative agency, it is done by task forces. 
For instance, we are very involved in the National Procurement 
Fraud Task Force. We are very involved in the International 
Contract Corruption Task Force. These are task forces that look 
very closely at contract fraud, major acquisition fraud, but 
most importantly they work with other criminal investigative 
bureaus like the FBI, Alcohol, Tobacco, and Firearms and so on. 
But our focus is to prevent as much as it is to prosecute.
    For instance, we are very involved in education in 
Southwest Asia, teaching those procurement and contract 
officials what to be looking for. Right now, for instance, we 
are very involved in a special project up in Rome, New York. 
We're looking at $14 billion in payment vouchers related to 
Army purchases. It is not very glamorous or exciting, but out 
of that will almost certainly come some very important 
investigative work that will lead to criminal prosecutions in 
Southwest Asia. What kind of work are we doing? Defense 
Criminal Investigative Service, we are--we focus on 
technology----
    Mr. Tierney. My time has expired. So I get it that your 
folks are mostly on criminal investigations--more reactive, as 
the Ambassador was saying, to leads or to things of that 
nature?
    Mr. Heddell. We are not just reactive. We are very 
proactive, I would say, and I would go so far as to say that 
the Defense Criminal Investigative Service is probably one of 
the foremost investigative agencies in our government.
    Mr. Tierney. Thank you. I will get to the other two 
witnesses. My time has expired. I'm not ignoring you. But I 
want to give a chance to Mr. Flake.
    Mr. Flake. Thank you, Mr. Chairman. Thank you to all the 
witnesses.
    Ambassador Geisel, in your comments, in your testimony, you 
refer several times to Pak-Af. We are used to hearing Af-Pak. 
Are you suggesting some shift in emphasis here? I have not seen 
that in other testimony. But is State leading the way there?
    Mr. Geisel. I hope not, sir. I just like the alliteration 
of Pak-Af more than Af-Pak. I think they both work.
    Mr. Flake. Is that just you, or have others been instructed 
to do that?
    Mr. Geisel. You know, I better check that I didn't mess up 
my testimony; it might have said Af-Pak.
    Mr. Flake. No, you referred to Pak-Af. But everywhere 
else----
    Mr. Geisel. No, I have Pak-Af. I don't know whether my 
folks are pulling a fast one or not. I don't think so.
    Mr. Flake. I was just wondering there. Sticking with you, 
Ambassador Geisel, the security guards at the Embassy brought 
us as a country, and as our image in the region, untold grief, 
just like Abu Ghraib and other things. Who bears 
responsibility? It seems unlikely that knowledge of this was 
with the eight who have been fired so far. It had to have been 
broader than that. Can you enlighten us as to what is going on 
in that regard?
    Mr. Geisel. I will partially enlighten you, sir. Because it 
wouldn't be surprising--I won't confirm that we have a criminal 
investigation underway, but I don't think you would be too 
surprised. There are two aspects that we are looking at. The 
first will be criminal misconduct, and that I'm not going to 
speak about. But we also, when the inspectors come in, they 
will be looking at just what you asked about, and that is the 
oversight over this contract and identifying just who failed on 
the job and who has to be held accountable. And that will be 
quite public.
    Mr. Flake. Looking at that broadly, for a committee like 
this, it gives us a little pause, if we are unable to police 
the security guards at the Embassy, on how good a job we can do 
with other oversight on broader issues.
    Mr. Geisel. It gives me pause too, sir. And I would say 
that of our security programs there are two major efforts. The 
program that was mentioned in the newspapers and in the media 
is the static guards. There is another area which is equally if 
not even more important, and that is what we call the Worldwide 
Personal Protective Service, and that is actually protecting 
our people when they move. And in that case, we have already 
done a very significant audit all around the world. And the 
audits came out well. But you can count on the fact that there 
will be audits and inspections because I was frankly--just like 
the Secretary--absolutely appalled by this information.
    Mr. Flake. General Fields, what progress has the 
Afghanistan High Office of Oversight made so far, and how are 
we working with them?
    General Fields. Thank you, sir. The High Office of 
Oversight, as the subcommittee may know, is borne out of 
President Karzai's attempt to deal with corruption. I have met 
personally with the minister who heads that organization. My 
principal deputy, who is located permanently at the Embassy in 
Kabul, works in support of the Embassy's dialog with that 
organization. I'm pleased that is off and running. There are 
some issues. It does not have very much capacity in that it is 
an organization of only slightly over a year old and it really 
needs support.
    Mr. Flake. Let us cut to the chase. Do you have much 
confidence in that organization or body?
    General Fields. Sir, I'm pleased that the initiative has 
been taken to address corruption and to put in place this 
particular kind of device to help deal with it, which in large 
measure is not really unlike work that many of us at this table 
conduct. At the same time, again, it needs support, it needs 
capacity. And I feel that we, the United States, can help in 
that regard.
    Mr. Flake. Thank you. My time is up.
    Mr. Tierney. I'm going to take the last second of your 
time.
    General, I have met the same individual you are talking 
about. I have been to his offices and I've looked at them. I 
don't have a great deal of confidence. I'm shocked that you 
don't come to that same conclusion. There is one thing to have 
individuals sitting in a chair. There is one thing to talk 
about this whole deal. But I think there is also to be a will. 
I didn't get a great deal of satisfaction thinking that there 
was a will from President Karzai and his staff to go at this 
issue and go at it hard. And one indication of that is, by your 
own admission, their failure so far to staff it up. Is that 
fair to say?
    General Fields. That is fair to say, sir, yes.
    Mr. Tierney. Mr. Quigley.
    Mr. Quigley. Thank you, Mr. Chairman. Mr. Chairman, I guess 
following up on what you just said, this is a very 
distinguished panel. But I think it would take an equally 
distinguished panel to think of a worse environment to try to 
gauge corruption and to root it out.
    I guess the line that came to me when the chairman was just 
speaking is the line from Casablanca where the gentleman says 
``Gambling at Rick's? I'm shocked.'' This is a government that 
is just embedded--it is a culture of corruption. Besides the 
fact that the President's leadership can best be described as 
weak, he just got reelected through an extraordinarily corrupt 
election. So now we are not only putting billions of dollars at 
risk, but I also think, given the lack of accountability and 
transparency and knowing where things are, I think we are 
putting our young people's lives at risk. And with the best and 
brightest of us all, and you all, and almost unlimited 
resources, I don't have confidence that we can do this or that 
we can operate in Afghanization effectively without widespread 
corruption because it is embedded in the culture.
    I guess I want your reaction on what gives you some hope 
that in that land, with limited access and extraordinary 
dangers and a culture of corruption, we should have any faith 
at all that, despite your best efforts, we are putting our 
folks at risk and wasting billions of dollars? Anyone.
    Mr. Heddell. Well, I think that the--I certainly think you 
have every reason to make that statement. And there is a 
tremendous amount on the line here. A tremendous amount of 
America's wealth is in Southwest Asia. And I think that people 
here at this table and other members of the inspector general 
and oversight community who are in departments, who oversee 
programs and operations and budgets that are related to 
Southwest Asia--and particularly now Afghanistan and Pakistan--
are concerned.
    But I would also say that we have come a long ways in the 
oversight community since 2003. I think we have learned a lot. 
I think the Department of Defense has learned a lot. And there 
have been some great lessons to be learned. We have taken 
issues that were identified in Iraq and we have transferred--
identified the solutions and transferred those to the 
operations in Afghanistan. And I can give you examples of that. 
So I think there is reason for optimism.
    The second thing is, in 2007, the oversight community, 
established by the leadership pretty much at this table, 
established the Southwest Asia Joint Planning Group. It is 
chaired by the Inspector General, Department of Defense, and 
includes over 25 members of the oversight community. It is a 
tremendous example of working together, identifying joint 
problems, reducing redundancy, identifying the gaps, areas that 
ought to be looked at that are not being looked at, and 
identifying new issues.
    We have people every day in Southwest Asia on the ground--
auditors, investigators--meeting regularly with the commanders. 
So now a commander doesn't have to wait for 3 or 6 months, or 
even a year, to get a report. He or she finds out right away 
what is happening and they can make corrective action almost 
immediately.
    So we are very proactive here. We've made some significant 
steps forward in the last several years. The Department of 
Defense OIG, for instance, alone we have doubled our audit 
investigative staff over the last 12 months.
    Now the numbers aren't great. We have gone from 6 to 14. 
But that is significant. We have almost doubled our entire 
Southwest Asia audit and investigative work force, and in the 
next 12 months we are going to do more. We are going to 
increase that even significantly more.
    The point is that we're all trying to get ahead of the 
curve here; and if you look at it in terms of 2003, we've come 
a long way. But what we did yesterday is not good enough for 
today. And what we're going to do tomorrow is going to have to 
be a heck of a lot better than what we've done.
    Mr. Quigley. Mr. Chairman, if I can interrupt. I recognize 
your best-faith effort. All I'm suggesting is, because it 
affects the decisions we're going to have to make on the 
President's recommendations, that it sounds like what you're 
telling us today is that you're making improvements on what 
you're doing. And I think the response--and I don't see an 
answer that tells me otherwise--is as long as you're going 
through Afghanistan's government, there is no reason anyone 
should have faith that money won't be wasted and lives won't be 
put at risk.
    Mr. Geisel. I'd like to take a shot at it, if I might.
    In a way, we're luckier than you are because we don't make 
policy, we do oversight, and that means, as far as I'm 
concerned, we have to continue to inspect and audit what are 
very important programs without saying whether it's a good 
idea, whether the policy is a good idea or not. We leave that 
to the President and to the Congress.
    There are very important programs that we want to give our 
best to, for instance, the rule of law and anti-corruption 
efforts, which I think are arguably the most important efforts 
we at State OIG are looking at. Now, regardless of whether 
these programs are going to succeed or not, we're going to give 
it our best efforts as long as you tell us to be in 
Afghanistan.
    Ms. Williams-Bridgers. Mr. Chairman, I'd also like to 
respond to Mr. Quigley's question and comments. A couple of 
things.
    One, I think, is that we here at the U.S. accountability 
community, if you will, can't do it alone. There is a global 
accountability community with whom we must also engage. GAO 
does this regularly by having consultations and creating 
working groups with other national audit offices. We are 
engaged now in a capacity building exercise with the Iraqi 
national audit office, and we look to do this on a more 
regional basis. So we have to look to share the knowledge that 
we have in order to create partnerships with other 
accountability partners. Afghanistan's national audit office is 
in its nascent stages, but we have seen significant growth in 
other national audit offices as well.
    Mr. Tierney. I think the frustration may be, as I say, like 
a day late and a dollar short. This thing has been going on 
since 2002, 2001, and now we're starting to talk about what 
we're going to do, finally, and I think that's maybe indicative 
of some of the frustration here.
    Mr. Duncan, you're recognized.
    Mr. Duncan. Well, thank you very much, Mr. Chairman.
    I appreciate the fact that you and Ranking Member Flake are 
continuing to try to oversee all the really unbelievable 
spending that is going on in this part of the world, because we 
so flippantly talk about trillions now, where we were talking 
about billions. I think we really lose sight, and can't really 
comprehend, the astounding amount of spending that's going on 
in this area. And, in fact, General Fields mentioned that we'll 
be up to $50 billion in rebuilding Afghanistan by the end of 
2010; and in yesterday's Washington Post it says that the 
pending 2010 budget has $129 billion budgeted for spending in 
Afghanistan, Pakistan, and Iraq, and for the first time we will 
be spending over half of that or more in the Afghanistan-
Pakistan region--$68 billion as opposed to $61 billion.
    No one can really humanly comprehend how much even $1 
billion is. So these are amazing amounts of money that we're 
talking about, and I certainly have no criticism of any of the 
witnesses here, because if we're going to be spending that kind 
of money, we need to have people like this making sure that it 
is being spent in an honest and not a wasteful way.
    But the point I would like to make is that we shouldn't be 
spending all this money in the first place. We're spending 
money that we don't have. Our national debt is reaching $12 
trillion now. Nobody can even comprehend that kind of figure. 
But now they're going to have to come to the Congress once 
again to raise the debt limit once again. It's just 
unbelievable what we're doing.
    I'm saddened that it seems that criticism of these efforts 
has been limited primarily to liberals, until a few days ago. 
George Will finally started to question some of this. Because I 
have said many times and I still believe that the fiscal 
conservatives should be the people most upset, most concerned 
about all of this amazing spending. It's just mind-boggling, in 
a way.
    General Petraeus said, a couple of months ago, that we need 
to remember that Afghanistan has been known through the 
centuries as the graveyard of empires. Now I'm sure, being the 
good bureaucrat that he is, that he's never really opposed any 
spending by the Department of Defense and that's one thing that 
I think fiscal conservatives are going to have to realize at 
some point, that the Defense Department is, first and foremost, 
a gigantic bureaucracy, and like any gigantic bureaucracy it 
always wants to expand its mission and always wants to get 
increased funding.
    Now I have the greatest respect for those in the military; 
and I believe that national defense is probably the most 
important, most legitimate function of a national government. 
But I also don't think that means that we just automatically 
should approve every huge increase and every military adventure 
that the Defense Department or any other department requests. 
Because I will go back to what I said a few minutes ago: We are 
spending money that we don't have and we're really putting in 
great jeopardy the future--I used to say of our children and 
grandchildren, but now I say of ourselves. Because I don't 
believe it's going to be 10 or 15 years before--if that long--
before we're not able to pay all of our Social Security and 
veterans' pensions and all the other things we've promised our 
own people.
    So I wish all these witnesses well; and I commend you, Mr. 
Chairman, for holding this hearing. But I think we need to 
realize that we can't afford to keep doing what we're doing in 
Afghanistan and Pakistan and keep expanding our mission and 
increasing our spending over there. We're going to increase our 
troops by the end of the year to 68,000, and in all of these 
areas we're having as many, or more, civilian contractors than 
we have military troops. At some point, we've got to come to 
our senses and realize that we just simply can no longer afford 
this.
    Thank you.
    Mr. Tierney. Thank you, Mr. Duncan.
    I think the concern here is that, obviously, we're all 
looking at yet another strategy for Afghanistan, obviously 
there's a military component to it, and some troops are 
probably going to be recommended by General McChrystal, but 
there's this whole development piece as well. There's supposed 
to be an investment that people are going to make on the rule 
of law, training of police and other security forces.
    But I want to take a quote from Inspector General Fields' 
written testimony: ``The current security situation is neither 
conducive to building and repairing, nor to developing Afghan 
capacity to hold elections, provide justice, or meet the basic 
needs of the Afghan people.''
    The efforts haven't been effective, and they are replete 
with accountability problems. That's is the crux of this. That 
why you're all here. Because I think we all acknowledge that 
very statement, that this has been a mess. Whatever you want to 
attribute the problem to, we've had a situation that hasn't 
gotton the attention it should get since 2001. How deep are we 
into this thing, with a culture of corruption, but also a 
practice of corruption and corruption being embedded in the 
official representatives that are being put in the government 
of Afghanistan, and we have other situations over in Pakistan.
    So how are you going to proceed? How are we going to 
proceed, and what are the resources we're going to apply to 
that?
    And I would expect that we're going to do something about 
trying to put in place standards and processes before we start 
spending the money, hopefully, particularly in areas like FATA, 
Northwest Frontier Province, and other really difficult areas 
in both areas in both countries to go into.
    So has there been consideration about not just spending the 
money before processes are in place? And if there are those 
kind of considerations, would you tell us what they are and how 
they're expecting to implement them?
    I know that Mr. Heddell mentioned a lot of this is 
educational preventatives. So I'm hoping that you're out there 
on the ground ahead of time saying to all of the people that 
are going to get the money: Here's some advice from us ahead of 
time. Before we come in and audit you and investigate you and 
go at it at that end, here's what you can do to avoid a bad 
audit and a bad investigation, and here's what we're going to 
do to have in place systems and processes. And then, hopefully, 
we're not going to start spreading out the money until we are 
satisfied from reports of all you people those things are in 
place.
    Would somebody like to respond to that? Mr. Heddell, do you 
want to start?
    Mr. Heddell. Yes. I actually would, Mr. Chairman.
    The oversight community is not the one spending the money, 
but we're trying to identify where it's going and whether it's 
going properly and being spent----
    Mr. Tierney. That's clear.
    Mr. Heddell. In 2008, we issued what we call a summary 
report. We included 302 reports and testimonies of not only the 
DOD Inspector General but the military audit services--the 
Navy, the Air Force, the Army--and Special Inspector General 
for Iraq, and GAO. In these 302 reports, we issued over 970 
recommendations. So we're following up on every one of those.
    Mr. Tierney. I was just going to ask you that. That's a lot 
of recommendations that are not doing anybody a hill of beans 
unless somebody is drilling down and making sure they're 
happening.
    Mr. Heddell. Yes, sir. I apologize for interrupting you. I 
can tell you right now that we're tracking this. Seventy to 80 
percent of those 900-plus recommendations are being addressed 
by the Department of Defense, and many of them have been 
resolved. So there is action. But action only occurs when 
there's followup. And that's one of our most important 
programs, is to followup. And I would give this for the record.
    Mr. Tierney. We have a copy. Most of us have read it.
    That's the idea of following up on recommendations made, 
and I think that's essential. But I'm also talking here about a 
little bit of preventive action or trying to get people to know 
what's the right course before you get down the path.
    Mr. Heddell. I would offer another one, preventive. We 
learned in Iraq that electrical systems--this may sound 
fundamental, but electrical systems are deficient. Americans 
died needlessly. And those lessons are learned and being 
transferred to Afghanistan.
    Mr. Tierney. I understand, and that's great, but I'm really 
talking about a broader strategic path here. We're going to 
have people spending development money in FATA, in the 
Northwest Frontier Province, and remote areas of Afghanistan. 
So the first problem is: Do they have in place processes or 
standards that they know they have to meet? And the second 
thing is, if we can't physically get there ourselves, what do 
we have in place to do that?
    Ambassador, do you want to take a stab at that, or Ms. 
Williams-Bridgers?
    Mr. Geisel. I will let my colleague from USAID do most of 
the talking, but there's two points I'd like to make. The first 
is: My staff has been kind enough to explain to me how Af-Pak 
became Pak-Af, and the answer is it was Ambassador Holbrooke 
who started using Pak-Af.
    Actually, the point that you made about trying to get ahead 
of the curve is exactly what I think this community is trying 
to do in Pakistan and, for that matter, why I think you're 
holding this hearing, if I may be so bold.
    Mr. Tierney. It's a large part of it. That's why I wanted 
to get to it.
    Mr. Geisel. We are working with the embassy. Our inspectors 
will work with them, our auditors will work with them, raising 
these various points.
    For instance, as you mentioned, and as we all know all too 
well, it is going to be very, very difficult to work in the 
FATA, the federally Administered Tribal Areas. It's really 
dangerous. We are working together with the embassy in what I 
think are some rather imaginative ways to consider how we are 
going to perform oversight in what is a very challenging area, 
and at least we have the sad experiences in Iraq and in 
Afghanistan to guide us.
    Mr. Tierney. Now we're talking about $1.5 billion over 5 
years, a serious amount of money. I think this committee should 
want some comfort that, before that money is dispersed, that 
these things are in place. And so I ask again, is there some 
mechanism or a trust account, somewhere that money is going to 
reside until we are secure in the notion that it's not going to 
be distributed until there's something in place that gives us 
reasonable comfort that it's going to be spent wisely?
    Ms. Williams-Bridgers.
    Mr. Geisel. If my colleague will let him, since he's got 
most of the money----
    Mr. Tierney. He's got most of the money, but not enough 
staff, I will tell you that. We will get to that, too.
    Mr. Gambatesa. Earlier I mentioned that, basically, in the 
audit world, we follow the money. In our investigations, 
although primarily reactive, we do a lot of fraud awareness 
training around the world. I don't have the stats, but we do 
hundreds of these training programs where we provide training 
to not only USAID personnel, but representatives of 
contractors, subcontractors, and grantees. We actually get out 
and show them what to look for in fraud. So I think in that 
proactive way we do some of what you're looking for.
    Mr. Tierney. But then we're left with the problem of 
overseeing the contractors and subcontractors because we've 
lost so much of our in-house capacity. We sometimes don't even 
have enough in your department alone to manage and oversee 
those contracts.
    Mr. Gambatesa. Well, I'm not speaking for USAID, but 
historically, and many of our audits have shown that, many of 
the problems that they face, especially in conflicts areas, is 
lack of staff, lack of trained staff and lack of people willing 
to go to those places to work.
    Now the agency is in the process of building their staff, 
and hopefully that will help. But certainly in the past they've 
had a problem in that area.
    Ms. Williams-Bridgers. Thank you, Mr. Chairman.
    There are a couple of things I believe that can be done in 
a preventive mode to ensure that our money is well spent, and 
in large part it requires the help of the Congress. There was 
mention early on of Ambassador Eikenberry's discussions of 
looking at alternatives such as direct budgetary support, I 
believe, for Afghanistan. I have not seen his letter, but I 
look forward to reading it.
    But what we have clearly learned in the past, that while 
these type of efforts, direct cash transfers or direct 
budgetary support, are good in intention and often result in 
very good outcomes because presumably they are consistent, they 
allow there to be some consistency and anticipation and 
planning for what the needs are of the country we are looking 
to serve. Oftentimes in the past we've found that the moneys 
that we've spent have not been consistent with the national 
needs or priorities, and therefore there has been a lost 
opportunity to really make big gains.
    But any direct budgetary support must come with the ability 
of the accountability community to access the records and the 
backup documentation that is kept there so that we can exercise 
some control and oversight, as well as the host country 
government having some accountable system, some data that they 
can rely upon to ensure that the moneys are accounted for and 
well spent.
    We've learned well in the past in our other investment 
efforts--in countries where there is no such access--that we 
have no ability to track and account for our investment made 
there.
    Second, I would also ask the Congress' assistance and 
support in ensuring that when agencies respond to our 
recommendations, GAO's recommendations in particular, there is 
a requirement in the law that the agencies respond within 60 
days to the Congress, informing them how they intend to act on 
the recommendations that they've often agreed with before we 
have issued our reports. We incorporate whether or not the 
agencies agree or disagree.
    As is often the case in transitions in government, the 
agencies aren't aware of this requirement. And so, most 
recently, in dealing with some of our agencies that we are 
dealing with at this table, we have found that those letters 
are just piling up in someone's room and not knowing where they 
should go or they haven't been prepared at all.
    So we would be glad to work with the Congress to try and 
reinforce some of these mechanisms to assure not only 
responsiveness to past recommendations that will prevent 
misspending and fraud and abuse in the future, but also to 
ensure that there is access and accountability over any new 
investment that is made, given any new direction that might be 
pursued.
    Mr. Tierney. I'll get back to this. I want to give Mr. 
Flake an opportunity.
    Mr. Flake, thank you.
    Mr. Flake. Just to followup on that, quickly. Obviously, 
the government of Afghanistan wants budgetary support. All of 
the governments do. You're telling us that you'll make the 
recommendations or you have made the recommendation that not be 
the case until we can access records that we clearly can't 
access right now. Is that the case? It's your contention that 
we wouldn't be able to have access to how the money is being 
spent, even though we pretty much know that's not a direction 
that certainly I want to go here.
    Ms. Williams-Bridgers. We've not made the recommendations 
because I have not yet seen this proposal and I don't know what 
stage this proposal is in. But given our past experience with 
direct budgetary support provisions----
    Mr. Flake. Right. Thank you.
    Mr. Gambatesa, you testified that you made 84 
recommendations for operational improvement to USAID programs. 
How many of these recommendations have been implemented?
    Mr. Gambatesa. I don't have the exact number, but generally 
we get management decision on the majority of them. I'd have to 
get back to you on the exact number. I don't have that here. I 
don't have that number right here with me.
    Mr. Flake. You said generally you get----
    Mr. Gambatesa. Generally, we get management concurrence on 
the recommendations we make. They don't object. I'm not aware 
of any of these where we've had an objection where we're not 
going to do what we recommend. Whether they've actually gone 
through and completed the recommendation, I'd have to get back 
to you on that. I don't have that right here.
    Mr. Flake. When were the recommendations made? How long 
ago?
    Mr. Gambatesa. The information I was giving was over a 4- 
or 5-year period. So it's over that span.
    Mr. Flake. OK, over that span. So your anticipation is that 
most of them have been implemented.
    Mr. Gambatesa. I would hope they have been, but I can check 
and get back to you.
    Mr. Flake. Can you get back to us on that?
    Mr. Gambatesa. Sure.
    Mr. Flake. Typically, if they don't follow through and make 
the recommendations, what happens? Who do you then go to and 
say, hey, you're not making the improvements, not following our 
recommendations, and at what point is Congress informed? Is it 
through this regular process or is there a trigger that forces 
you to come back to us and say, hey, these programs ought to be 
shelved because they aren't following our recommendations?
    Mr. Gambatesa. There is in fact a process within the 
Inspector General's Act that requires us to notify Congress if 
recommendations aren't acted upon within a 6-month period.
    Mr. Flake. When was the last time that you notified 
Congress?
    Mr. Gambatesa. We have never had to. Well, in my tenure, we 
have not had to.
    Mr. Flake. Is that the goal for everyone here, for the 
other agencies?
    State, Ambassador Geisel, have you had the experience where 
you've had to come to Congress?
    Mr. Geisel. I'm informed that we actually had to report two 
instances of noncompliance to the Congress.
    Mr. Flake. That was with regard to Afghanistan?
    Mr. Geisel. No, sir.
    Mr. Flake. So what we're hearing so far is every 
recommendation made with regard to Afghanistan has been 
implemented. Does that go also for Defense?
    Mr. Heddell. Mr. Flake, I've been at the Department of 
Defense for about 14 months now. During my time I don't know of 
any instance where we've exercised that requirement. However, 
we do issue semiannual reports to the Congress. In these 
reports are a list of recommendations in a broad sense. So we 
do keep the Congress fully apprised of what we have found, what 
we are doing, and what we are monitoring.
    Mr. Flake. General Fields, did you have a comment there?
    General Fields. Thank you, sir. I wish to comment on the 
follow-up to recommendations.
    Our first report in my capacity, given that we are a new 
organization, was issued several months ago. It was a report on 
$404 million of Afghanistan Security Forces funds administered 
by CSTC-A. We discovered that there was insufficient oversight 
of that particular arrangement, the funding, the execution of 
it. Principally, the contract oversight person was located in 
Maryland rather than in Afghanistan where the money is being 
executed.
    We are pleased to report that as soon as we made this 
observation to CSTC-A and to U.S. Forces Afghanistan, they 
began to address it. That included followup work by the 
Secretary of Defense and other oversight entities.
    So from that standpoint, speaking exclusively for SIGAR, 
there has been a response to at least that report. There are 
several other reports that we have issued, but it's too early 
for immediate response to be reported to this subcommittee 
today.
    Mr. Flake. Thank you.
    If I could followup with one question. Ms. Williams-
Bridgers, you mentioned--and all of you mentioned--the security 
situation makes it difficult for you to carry out your work in 
Afghanistan. For a committee like ours, where do we draw the 
line and say the security situation is such that we can't carry 
out our oversight functions or the security situation is so bad 
that perhaps we shouldn't be spending this money because we 
can't account for all of it? Where do we draw that line?
    I know it's a difficult situation. All of us have traveled 
to Afghanistan, and we recognize that you can only have field 
offices or personnel in certain areas. It's a real endeavor to 
go out, particularly in some of the areas we've been talking 
about. But how are we to navigate that line, I guess, between a 
security situation so difficult that we can't provide 
oversight, or perhaps is it so bad that we simply shouldn't be 
spending these moneys in these areas because we can't account 
for them?
    Ms. Williams-Bridgers. Good question. I'm glad to say that 
I don't believe that we've reached that point yet where the 
security situation is so bad that we believe that we cannot 
provide the Congress with meaningful information to help you 
conduct oversight over our engagement in country. I think that 
we would inform you if we believed that were a limitation to 
our ability to answer the mail, if you will.
    I think that we have to take mitigating strategies. We have 
to mitigate against the limitations that may be imposed on our 
ability to actually make field visits. For example, when I was 
in Pakistan a couple of months ago, we wanted to go to the 
FATA, we wanted to go to Peshawar to see some of the projects 
that the U.S. Government has funded. We were not able to. 
However, we were able to extract enough data that we felt was 
sufficiently reliable from the agencies to be able to conduct 
our work and to be able to analyze it to make some reasonable 
judgments as to whether or not there was good recordkeeping, 
whether or not we were on track with plans that we had made in 
country.
    But there are a couple of lessons that have been learned, 
and actually these lessons form the basis for military 
counterinsurgency doctrine. First is to establish security. 
First and foremost, establish security before you proceed with 
reconstruction. We've learned this from Iraq. We've learned the 
very hard lessons from Iraq of investment that has been 
destroyed--our investment in infrastructure that was destroyed 
because the security was such an unstable situation.
    Second, is to create an economic foundation in that country 
that they can sustain the investment that we have made in-
country. Again, this goes back to what kinds of strategies do 
we need to think about going forward as we look to increase our 
investment there.
    Third, is to extract the political commitment from the 
country that they are going to carry out those priorities that 
they've established, priorities that we join in with the 
country and create the basis for our own strategic goals in 
that country.
    So I think that we need to continue to think of that as we 
move forward with any future investment, and certainly these 
are things that we are going to continue to monitor in our own 
oversight strategy to ensure that investment is well made and 
protected.
    Mr. Tierney. Thank you.
    I guess the trick here is not to put the cart in front of 
the horse, which I think, billions of dollars in, is being 
done. I think most notably of the coalition support funds in 
Pakistan. When we were there investigating, whatever, we found 
$6.7 billion spent, in large part which was not accounted for 
at all. Part of what happened was the money was basically paid 
to Pakistan, it went into the general treasury, and you were at 
the mercy of believing or not believing what was going on. But 
I do know that we looked at about 35 helicopters with money 
that was paid supposedly to have them repaired, and they're all 
sitting on the ramp out there, unable to move.
    So that's the kind of thing that we're talking about here, 
that we need to get out in front of this on that situation. As 
the Special Inspector General says, the current situation in 
Afghanistan is such that it's not conducive to building or 
repairing, nor is it conducive to developing the Afghan's 
capacity to even hold elections, which we've seen, or to 
provide justice, or to meet the basic needs of the Afghan 
people. So are we going to throw money into the development 
side without resolving those issues first? We seem to be doing 
it with the right motivations and moving forward, but it's hard 
to do that, in Pakistan in particular.
    I know that you were out there, and we've been out there as 
well, in the FATA and the Northwest Province area. I'd like to 
know a little bit about how it is that you have so much faith 
that we're able to do it.
    I know the foreign assistance in FATA, according to the 
special inspector, is being accomplished with the use of non-
U.S. implementers. Basically, we're contracting it out or we're 
going to locals. When we were there, we couldn't get much 
further out of Peshawar, and the people there told us, 
nongovernmental organizations, our own consulate told us they 
couldn't get anywhere near where the projects were happening, 
whether it was an irrigation project, whether it was a well, 
whether it was a school. And so they were trying to use 
flights, overhead flights. They were trying to use the word of 
mouth from other people who had been out there. How reliable is 
that?
    Ms. Williams-Bridgers. Let me clarify. We heard the same 
thing when we were on the ground, as we met with local 
nationals, as we met with agency officials, we met with the 
secretary of the FATA. We are in the course, currently, of 
evaluating our development assistance efforts in the FATA. We 
have not reached our conclusions yet. But what I'm saying is 
that we were able to get data that we believe that we can rely 
on from the agencies to be able to conduct our analysis. So we 
have not yet reached our conclusions.
    Mr. Tierney. Having done all the things you've done on 
that, I'm more skeptical than you are, so I'd like to see a 
report and the foundation for your reaching that conclusion 
because I think it's an important matter here. $1.5 million 
heading in that direction, we want to make sure it isn't going 
in the wrong direction.
    The Combined Security Transition Command in Afghanistan, 
that is a serious matter, obviously. We had all those weapons, 
with the potential they might not be accounted for. Is there 
followup being conducted on that?
    Mr. Heddell. Yes, Mr. Chairman. In fact, we have done 
several reviews relative to weapons and explosives 
accountability in both Iraq and Afghanistan. We did find that 
there were concerns. We've also found that there have been 
corrections made with respect to those in Iraq.
    Mr. Tierney. I don't mean on just the Afghanistan----
    Mr. Heddell. In fact, we went to Afghanistan last fall. We 
took a look at weapons accountability, as well as training and 
equipment sustainment.
    Mr. Tierney. So we had several reports on that, which is 
why I raised the question. We went out there and visited as 
well, and we were not satisfied, at the time we went out there, 
that enough was being done. So you're answering me now that you 
are looking up and following up.
    Mr. Heddell. We have followup work planned, several things 
that will be in motion between now and next spring. Yes, sir.
    Mr. Tierney. Thank you.
    Now, the Special Inspector, I have a question about your 
part of the report indicating that, obviously, we're aware of 
salaries going to ghost employees in the security divisions of 
Afghanistan. I think you're following up on that. But we also 
have a report in your written remarks about some private firms 
that are spending international moneys hiring security people 
that may, in fact, be connected to the Taliban.
    Now my question to you is, which flavor of Taliban are they 
hiring? Who are they, that particular group of Taliban? And is 
that a dangerous thing for them to be doing that? Is there 
something being done about it, if it is? Could you elucidate on 
that?
    General Fields. Thank you, Mr. Chairman.
    Our work in this particular area is not complete at this 
time, but this is a serious matter, at least to look at in 
terms of determining if there is wrongdoing and if, in fact, 
the allegations that we have seen especially over the past few 
days are, in fact, valid. But I'm not prepared, Mr. Chairman, 
at this time to report any of the results. But I just wish, 
though, to inform that these are matters that we are looking 
into.
    Mr. Tierney. When do you think that you'll have some 
results on that particular inquiry?
    General Fields. Sir, I would suggest perhaps within the 
next month.
    Mr. Tierney. Well, I think the sooner, the better. It's a 
rather alarming concept that could be looked at here. If it's 
Taliban that are then turning around and focusing on our 
troops, international troops, and against the Afghan 
government, certainly we've got a major problem. If they're a 
different breed of Taliban, then we have to know about that as 
well. So I urge you to move on that as quickly as you can.
    General Fields. Thank you, Mr. Chairman.
    Mr. Tierney. I'm particularly concerned about the police 
training and the army training as well, but even more so about 
the police training there. And I would hope that is something 
that somebody in this group is going to look at in-depth. Here 
we are, 2009, nearing the end, and the police training, there's 
corruption rampant there.
    I know there's a great plan the Department of State has 
about training some people and switching them in. I think if we 
go on that basis, by the year 2030 we ought to have covered the 
country and be ready to start again. So that's the difficulty 
there. Who's taking the lead on determining what the status of 
training the police in Afghanistan is?
    Ms. Williams-Bridgers. We will be following up on our past 
work looking at the training and capabilities of the Afghan 
National Police. Right now, we are focusing our attention on 
the army, but in the course of our followup work and in future 
work we will definitely pay attention to the security 
capabilities.
    Mr. Tierney. We have had a number of substantial witnesses 
before this committee who are quite knowledgeable about 
counterinsurgency and tell us that the police are every bit as 
important or more important than the military for that. So I 
would hope that we could at least do them simultaneously, as 
opposed to stacking the military first and then the other. 
We've seen on our own visits and talks with people over there 
that it's critical that be done. If the local population 
doesn't have any confidence in the legitimacy of their police 
force, we're in a terrible state of affairs.
    So, other than the Government Accountability Office, is 
SIGAR looking into that?
    General Fields. Thank you, Mr. Chairman.
    We know too well that of the $30 billion to which I made 
earlier reference, that the United States has invested in the 
reconstruction in Afghanistan, over half or about half of that 
money--about $18 billion, really--has gone toward the 
Afghanistan National Security Forces. A large body of our work 
has been done, is ongoing, and will be done to address the 
significance of that element of funding for the reconstruction.
    Mr. Tierney. The fear is this: There's a large amount of 
money that's gone toward that. That portion that was designated 
to secure the police may not be an investment. It may have been 
wasted on that. When you look at the state of affairs of the 
police in Afghanistan, it's hard-pressed to call that an 
investment to date. So the idea would be to get a report as 
quickly as possible on that as to what would turn that into an 
investment that would have some positive results. Because we 
don't do that. All the people that we have over there, not just 
military people but all the people that work for you, all the 
people that are working in development and whatever, there is a 
serious risk regarding that. So I appreciate that, if you would 
do that.
    Mr. Geisel. Mr. Chairman, actually, State OIG and DOD OIG 
are undertaking a joint study of police training right now. Our 
report should be ready, I believe, in December.
    Mr. Tierney. Well, thank you for that.
    Should the SIGAR's role be extended to cover Pakistan as 
well, or how are we going to address all of our oversight 
issues in Pakistan?
    General Fields. Sir, we have looked at this question, of 
course, well before this announced testimony. We have dialogd 
with Ambassador Holbrooke on this, and he made certain 
references to this issue during his testimony in June.
    We, from the SIGAR standpoint, support the idea of 
extending our mandate to assist in covering Pakistan--for one 
reason, the inextricable linkage between Afghanistan and 
Pakistan, the fact that if the extension of our mandate is 
similar to that which we currently have, which allows us to 
look across agencies, we think that is a considerable benefit.
    We believe also that, in spite of our relatively meager 
numbers right now, we could almost immediately commence some 
degree of oversight of spending in Pakistan, and over a period 
of time, with increased funding, leading to increased numbers 
of auditors, inspectors, and investigators, build to a more 
substantial effort to address this matter.
    We underscore the significance of oversight, which in the 
case of Afghanistan may have started before SIGAR, but not at 
the time at which we began to invest significantly in the 
reconstruction of Afghanistan. So we would not like to see this 
happen in Pakistan as well.
    Mr. Tierney. I say this not to be a wise guy, but you're 
aware of some criticisms of the Special Inspector General's 
Office in Afghanistan.
    General Fields. Yes, sir.
    Mr. Tierney. Address that for me, if you will.
    I think basically the criticism involved around a paucity 
of reports, and they were comparing it to the number of reports 
that have come out of Iraq, in the comparable period, at the 
outset of those offices. You had five reports I think over the 
course of your first year; and I guess there were many, many 
more in the Iraq office during their first year. But given that 
criticism, if you would address that and address whether there 
be enough personnel and enough capacity in the Special 
Inspector General's Office in Afghanistan to actually go over 
into Pakistan and we might not be better off focusing on other 
agencies or another special inspector.
    General fields. Yes, sir.
    First, let me address the criticism of this office. The 
criticism, frankly, Mr. Chairman, is not unexpected. We were 
late in getting funding to support our effort, but this 
Congress has now provided the funding, particularly as a part 
of the $7.2 million we received, which complemented the $16 
million that we had previously been provided. That really has 
rounded us to hire the people that we informed the Congress 
last year about this time that we wanted to hire to get our 
work done. So we are hiring the right folks to do the job.
    We are not suggesting that we have excess capacity, but we 
are suggesting that it would be advantageous to the oversight 
community if we were to link the oversight of Pakistan with 
that of Afghanistan; and given our now almost full year of 
funded oversight work, we feel that perspective is a valid one.
    Mr. Tierney. The capacity of all of your offices somewhat 
concerns me. Government Accountability Office, they seem to be 
getting people around pretty well, but I'm not sure--most 
distressing, I think, is USAID, the in-house capacity that your 
office used to have.
    You have 210 Foreign Service officers and Civil Service 
employees, Mr. Gambatesa. What's the breakdown of that? How 
many of those are Civil Service employees and how many are 
Foreign Service officers?
    Mr. Gambatesa. About 125, ball park, are Foreign Service. 
The rest are Civil Service.
    Mr. Tierney. So they're covering a hundred countries, 
billions of dollars. Now there was a day when your capacity was 
substantially higher than that, am I right?
    Mr. Gambatesa. I don't have that knowledge. I don't know 
personally. I can ask one of my staff.
    We are in the process of staffing up. I mean, our budgets 
have been increased. We are getting the funding, I believe. We 
are in the process of trying to hire another 20 auditors.
    Mr. Tierney. Foreign officers?
    Mr. Gambatesa. Mainly Foreign Service.
    Mr. Tierney. Have you had difficulty finding people that 
are qualified?
    Mr. Gambatesa. Not really. We've hired probably 20 in the 
last 6 months. Many of them are very highly qualified.
    Mr. Tierney. Are you having difficulty finding people 
willing to go to Afghanistan or Pakistan?
    Mr. Gambatesa. That's the issue, whether they want to serve 
in those countries. I think that's the limiting factor, more so 
than their qualifications as auditors.
    Mr. Tierney. Of those 20, what percentage of those people 
were willing to go to Afghanistan?
    Mr. Gambatesa. They have to be. If they're Foreign Service 
officers, they have to be actually cleared medically, for 
example, to go to anywhere we have offices or where we work.
    Mr. Tierney. If it weren't for the fact that you are 
inviting them to go to Afghanistan and Pakistan, how many of 
those 20 slots would you have filled, do you think?
    Mr. Gambatesa. I don't think it would be much different. I 
think we're doing quite well, but we certainly need to staff 
up. I did mention in my written statement that if the funding 
proposed for Pakistan is actually appropriated we will be 
asking to put an office there, a significant number of 
employees.
    Mr. Tierney. Right now, you're relying on a substantial 
number of Pakistani and Afghanistan accounting firms. You're 
training their people and moving forward. How confident are you 
that those people not only have the requisite skills but the 
will to do the job, and what about a corruption factor there?
    Mr. Gambatesa. When we are dealing with private accounting 
firms it's difficult to tell from the corruption standpoint. We 
provide them training and contract with them to go places, for 
example, in the FATA, where we can't go. Both for financial 
audits and we are actually asking them to go and look at 
programs from a performance standpoint to see if the building 
is built and that sort of thing.
    Mr. Tierney. Because we are not doing it in-house, we are 
then at the mercy of doing that, because we don't have people 
to go out and watch their work. If we do, we are certainly 
redoing the wheel here. We have people go out and do the work; 
then we have people to see if they did the work.
    Mr. Gambatesa. That's true. But as we have all discussed--
--
    Mr. Tierney. It sounds like a tough state of affairs.
    Mr. Gambatesa. As we've all discussed, the security 
situation is such that if we can't get out at all, this is 
better than doing nothing, I guess. At least it's an effort at 
trying to get some eyes on the programs.
    Mr. Tierney. Now our trips out there indicated to us that 
in fact those folks weren't having that much of an easier time 
getting out there as well. Isn't that true?
    Mr. Gambatesa. I don't know that. We're just beginning this 
program.
    Mr. Tierney. Ms. Williams-Bridgers, you can probably answer 
that. The indications are that there's people that live in FATA 
and people that don't. When people that don't live in FATA get 
out there, they're not well-received all the time. Same with 
the provinces. Is that correct?
    Ms. Williams-Bridgers. That is correct. In fact, when we 
were there in June, the U.S. Embassy retracted its personnel 
from the consulate in Peshawar because of the security 
situation.
    Mr. Tierney. So I think we're going to have a difficult 
time, no matter what.
    Mr. Flake. Just to followup a bit on the first question I 
asked, Af-Pak versus Pak-Af. That comes, we understand now, 
from Ambassador Holbrooke. It does, if that is the source, 
signal kind of a shift in focus, and we are hearing--well, 
according to George Will, Pakistan is the country that actually 
matters, as he put it. I think we have seen sort of a shift 
that, as Pakistan goes, so goes Afghanistan. That's the source. 
That's where the Taliban actually is. That's where we're going 
to be expending a lot of resources coming up.
    My concern--and it may be shared with the chairman and 
others--the chairman mentioned that we seem to be behind the 
curve ball all the time. We are into this 8 years, and we seem 
to always be having recommendations that are now going to be 
implemented 8 years later, instead of putting the resources in 
place initially before we ramp up the flow of resources to 
these areas.
    My concern now is, if there is a real shift in focus now, 
if it's Pak-Af, and our resources are flowing mainly through 
Pakistan, that we're going to be in a situation a couple of 
years from now where we only put your resources in place where 
the money has gone before and we are just chasing the tail all 
the time and we never seem to be putting structures in place to 
make sure these resources are expended properly after they are 
already in place.
    Ms. Williams-Bridgers, you mentioned that you would let us 
know if the security situation was such that we couldn't 
conduct oversight. But if the focus is Pak-Af now, we already 
know, as the chairman said, there's certain areas where we 
really aren't getting good information. I guess some of us are 
a little skeptical that will be the case, that we will be 
informed here where we need to make oversight decisions and 
funding decisions, that the situation is such where we simply 
can't account, rather than hearing a few years later, well, 
we're now catching up, or trying to catch up, to put these--
this framework in place where we can extend.
    Can anybody give me any confidence that if the shift now is 
Pak-Af, are we going to put the right framework in place in 
Pakistan in the areas that are concerning to us before we 
expend the money, not after?
    Ambassador Geisel.
    Mr. Geisel. I don't know that I'm ready to assure you that 
everything is going to be fine. In fact, I know I'm not. But 
what I can tell you is, at the request of Ambassador Anne 
Patterson, who was one of my successors the first time that I 
was acting IG--she followed Jackie--our Middle East regional 
office is going to conduct a review this fall of the current 
management control environment at Embassy Islamabad, in 
anticipation, just as you said, of the significant increase in 
funding and program implementation during the next 5 years. 
And, as I told you, we have moved up a full inspection of the 
embassy in Pakistan just for that reason, to try and get ahead 
of the curve.
    Mr. Flake. The first concerning thing there is we're still 
talking about a Middle East office when we're talking about 
Central Asia here. It's a little concerning.
    Mr. Geisel. It's a term of art. It's going to be the same 
office, albeit considerably augmented for Pakistan and 
Afghanistan, but I don't want to have one more bureaucracy. So, 
no, you can count on it. It's going to be the same office that 
does that, but it's going to be a whole lot more people doing 
it.
    Mr. Tierney. Ambassador Geisel, you said in your written 
report: Effective management controls are needed at the initial 
stage of assistance implementation. I think you hit it on the 
head with that. So are we going to need legislation here--I 
shouldn't ask you a policy question, so I will ask a rhetorical 
question. Are we going to need some sort of legislative mandate 
here that moneys not be distributed until we're satisfied with 
reports back from you folks that, in fact, effective management 
controls are in place for this assistance? And that would be 
something we'd probably want to look to reports from all of 
you.
    I think it's great that Ambassador Patterson, who, from 
what I can tell, is doing a good job in a difficult situation, 
that she's now going evaluate whether the Pakistan agencies and 
nongovernmental agencies have the capabilities to ensure that 
proper management controls are in place and funds used as 
intended. I wish her predecessors had done that, starting back 
at the beginning of the decade.
    But it seems to me that is the key here, that they are 
doing it, they have the capacity to do it, that we have some 
reliability and trust in them doing that.
    I'm reluctant to think we ought to be spending this money--
we ought to put this money, appropriate it perhaps and sit it 
somewhere until we get some indication from all of you that 
those things are in place and ready to go.
    And the security issue that Ms. Williams-Bridgers puts in 
might be another factor. And talk about that. So I think you've 
given us great food for thought on a number of different areas 
today, because I haven't heard a great deal of comment that 
gives us confidence that is, in this case, being done.
    Mr. Heddell. Mr. Chairman, may I interrupt?
    Something that might address Mr. Flake's question is a 
report, an assessment that the Department of Defense Inspector 
General issued in May of this year. It's classified, but it was 
an assessment, a review of all of the DOD-managed funds and 
programs that exist in Pakistan. It's very revealing, I think.
    We'd be more than happy to brief you in a closed session 
regarding that, but it certainly gets to what Mr. Flake, to 
some extent, was asking.
    Mr. Tierney. We'll set that up, if Mr. Flake cares to 
proceed with it.
    Just as long as I have your attention, Mr. Heddell, 
protective equipment for our troops, is somebody investigating 
whether or not there's sufficient standards for that equipment 
and whether or not our troops are getting the equipment in a 
timely fashion?
    Mr. Heddell. You're asking whether or not the troops are 
getting----
    Mr. Tierney. Whether or not we have somebody investigating 
or looking into whether or not they are getting the necessary 
protective gear and equipment they need to do their jobs in a 
timely fashion.
    Mr. Heddell. Absolutely. We've actually done a fair amount 
of work in that area, going back to 2006, Mr. Chairman. We did 
a review in Iraq----
    Mr. Tierney. That's what spurs the question. Iraq was not 
so much. We want to make sure it's happening in Afghanistan.
    Mr. Heddell. We found concerns in Iraq. We believe those 
have been addressed by the Department. We found issues not just 
with routine equipment but with up-armored vehicles, with 
armor. We are continuing to address those issues.
    At the same time that we are monitoring, the Department is 
also continuing to address those issues. We are hopeful that 
the lessons we've learned in Iraq are being carried forward 
into Afghanistan.
    But these are complex issues. For instance, up-armored 
vehicles, what may have been very effective in Iraq, because of 
the training in Afghanistan, may require very different 
resources. So we are continuing to follow that. It is a concern 
of ours, and we can report in the future on what we find.
    Mr. Tierney. I appreciate that.
    Ms. Williams-Bridgers. Mr. Chairman, may I also offer that 
GAO is also currently undertaking a review looking at the 
supply and equipping of U.S. forces. We're looking at what 
challenges are presented and to what extent lessons have been 
learned from Operation Iraqi Freedom. We are also looking at 
the Army and Marine Corps training and capacity and what 
lessons can be learned as they look to migrate from Iraq to 
Afghanistan. So we will be reporting out on both of those 
issues in the near future.
    Mr. Tierney. Does that hold true as well on medical 
attention to troops in the field? Is somebody looking at the 
capacity we've had to improve that situation as well?
    Mr. Heddell. Yes, sir.
    Mr. Tierney. Thank you.
    So let me just have a couple of wrap-up questions. We have 
a concern about the heavy reliance on contractors in a lot of 
different fields. I know you're all looking at that, but so is 
the Wartime Contracting Commission. Do all of you feel 
comfortable in your relationship with the Wartime Contracting 
Commission, and have they been sort of included in some of your 
deliberations? You're all nodding yes, so I take it they have. 
Nobody sees a conflict or an impediment anywhere there.
    Ms. Williams-Bridgers, let me ask this of you: I see GAO as 
a little bit of a different organization than I see the 
Inspectors General. You're traditionally known as Congress's 
investigatory arm, and I think it's great you're working in 
concert with them on a lot of different projects. Are you also 
maintaining enough independence to be able to stand aside and 
report something when somebody else may not have gotten to it 
yet, or may not have done it in a way or with the depth we 
think it should have been done because they have capacity 
issues and training issues or whatever?
    Ms. Williams-Bridgers. Yes. I believe yes to all of your 
questions. You will notice in the quarterly reports of SIGAR 
and our joint subgroup report that GAO in very limited 
instances has identified planned work. While we have informal 
discussions with our colleagues in the IG offices about work 
that we have planned, because all of our work in Iran, 
Afghanistan, and Pakistan is undertaken under CGA, Comptroller 
Generals Authority, we do so because we are addressing the 
interests and the needs of the myriad committees who have 
jurisdiction over the issues of U.S. engagement, and 
surrounding U.S. engagement, in these countries. And so we 
respond not only to your interests, we respond to the 
congressional mandates, as well as areas in need of followup.
    So we maintain some flexibility in planning out our work to 
be most responsive and timely in responding to your needs. So 
we assure our independence in that way from the others who have 
similar missions but different clients.
    Mr. Tierney. I'm not asking you again. So the subject 
matter of my next question--but can you give me an opinion as 
to whether or not you can answer it and will be able to work 
with us? Will your office be able to give an opinion as to the 
best way for us to effect oversight in Pakistan with respect to 
whether or not the Special Inspectors Generals Office of 
Afghanistan ought to be extended to cover that area or whether 
some other approach might be advisable?
    Ms. Williams-Bridgers. We can provide you some insights 
based on congressional history and enacting legislation 
standing up IGs.
    Mr. Tierney. I think we may ask you to do that, and we may 
get the other more informal basis on that for an opinion, 
because I do think we want to look at Ambassador Holbrooke, his 
comments that he made here, and General Fields' comments as 
well.
    Ms. Williams-Bridgers. We welcome that. Thank you.
    Mr. Tierney. Thank you.
    Mr. Murphy? I didn't even see you there. Mr. Murphy 
stealthily came into the room. So maybe we can look to him for 
some stealth technology.
    He has no questions.
    In that case, is there anything else that anybody wants to 
comment on, that you thought might have been left unsaid? I'll 
start from my left over here. General Fields.
    General Fields. Thank you for allowing me the opportunity, 
Mr. Chairman. I wish to go back maybe about an hour to the 
white paper produced by Ambassador Eikenberry which addresses 
how he would wish to approach certain matters in regard to the 
reconstruction effort.
    I want to point out to this subcommittee that, during the 
course of the past year, making my first trip to Afghanistan in 
this capacity last September, I have now visited 13 provinces 
and about as many PRTs or provincial reconstruction teams. I 
have met with about as many Governors of provinces or deputy 
Governors of provinces. I have met with practically all of the 
senior ministries of the Government of Afghanistan, to include 
three visits with President Karzai himself. Each time we 
visit--not just I, but I and my staff visit, we get--we receive 
this issue of Afghanistan wanting to be more involved in the 
reconstruction of their country.
    So I say this because I applaud, really, what Ambassador 
Eikenberry has put forth as what he would like to see as the 
way ahead in being more inclusive of the people of Afghanistan. 
This matter is resident in no less two documents that I am 
mandated in my legislation to oversee: the Afghanistan Compact 
and the Afghanistan National Development Strategy.
    This is a bold move. Yes, oversight will be even more 
important. One thing we are doing as a part of SIGAR is to 
determine the extent to which those controls are in place, 
those management systems necessary to ensure the American 
taxpayer that his and her money will be spent wisely and for 
the purposes made available by this very Congress. So we are on 
top of that, sir, and we will provide that feedback 
accordingly.
    Mr. Tierney. We are going to need it because I think Ms. 
Williams-Bridgers pointed out very clearly that if you go down 
that path and you want to pass your money through that 
government to enhance its legitimacy, then we darn well better 
be sure that we have some safeguards in place of how it is 
being spent.
    Given the current state of Mr. Karzai's government and the 
individuals that he has invited in to participate in that--and 
the reputation for corruption--I think we should be more than a 
little bit wary about just forking the money over and hoping 
for the best. We are going to need the advice and counsel of 
all of you to give us a very firm commitment on that, that 
we're going to try and buttress that government--even some of 
the provincial and more district governments. We know who we 
are dealing with. We haven't placed the safeguards on that. And 
we have a strict monitoring, day by day, so that we can pull 
the plug on it anytime we need to if it starts to go south on 
us, or else I think we are all going to be the fool for it. We 
are going to have spent a lot of money that this country needs, 
trying to undertake a national security issue that we also need 
but maybe has been wasted. So I think that is a critical aspect 
of your functions and I appreciate it.
    But I think that is right up there with some of the 
priorities if they--in fact, Ambassador Eikenberry's theory is 
going to be borne out. Then that just raises the ante on all of 
us, I think.
    General Fields. Absolutely, sir. Thank you.
    Mr. Tierney. And at least one last question that I almost 
forgot that I had. The CERP funds, the Commanders Emergency 
Response Fund, is about $1.6 billion since 2004. Are we 
monitoring that and updating and monitoring of how that is 
being spent and what results we're getting from it? I know the 
previous reports have not really seen a real tight accounting 
of that.
    General Fields. I think my colleague wishes to say 
something about it, sir. But let me go ahead and say, since the 
green light is on for me at the moment, we have just completed 
an audit of CERP and we have found certain strengths and, of 
course, as one might expect, certain weaknesses in the 
oversight of that spending. We will report out on this by the 
close of business today or within the next 24 hours. There are 
some issues to which we are advising U.S. Forces-Afghanistan to 
turn their attention to and we are confident that they will, 
sir.
    Mr. Tierney. We would appreciate a copy of that report as 
soon as it is done. And you can accommodate us on that?
    General Fields. Sir?
    Mr. Tierney. We would appreciate a copy of that report as 
soon as you publish it.
    General Fields. Absolutely, sir. It should be posted on our 
Web site within the next 24 hours. Is that correct, Monica? 
Thank you.
    Mr. Tierney. I would ask unanimous consent that the record 
be held open until that report is filed and it be included in 
the committee's report.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Williams-Bridgers. Mr. Chairman, GAO has also recently 
completed a report on CERP where we found there was a need for 
additional oversight, there was a need for additional trained 
personnel. While the intended effects of the provision of 
funding for certain projects was very good, we do believe that 
there is need for better coordination between DOD and USAID to 
make sure that money is well spent.
    Mr. Tierney. Who do you recommend do that additional 
oversight?
    Ms. Williams-Bridgers. DOD and USAID. DOD specifically.
    Mr. Tierney. Gentlemen, are we up to it?
    Mr. Heddell. Yes. Mr. Chairman, this is a very important 
area in terms of our considerations. We did do work and we 
are--we have more work planned. But our most recent report I 
think goes back to 2007, and we found administrative 
weaknesses. We had concerns. In fact, 15 of 16 pay agents did 
not have adequate storage for cash and other assets. Two pay 
agents made inappropriate payments.
    So we have found some of what we would consider to be 
serious concerns with that, and we are continuing to watch it. 
The Department knows we are very on top of that, and we will 
have additional work to be done in the future.
    Mr. Tierney. We are going to take a look at the Inspector 
General's report and the Government Accountability Office's 
reports and your most recent reports, even though they are a 
little bit dated and determine whether or not there is a need 
for another hearing or whether or not we will just keep 
monitoring what it is you are doing. But I do agree with you, 
sir, that this is very, very important.
    Do you have anything you want to say, Mr. Gambatesa, 
because you're going to be asked to do some more oversight in 
this area. Do you have the capacity to do it?
    Mr. Gambatesa. Yes, I believe we do.
    Mr. Tierney. Do you have the willingness to do it?
    Mr. Gambatesa. Yes, of course. But I would like to comment, 
though, on the question you posed to General Fields about 
extending his authority into Pakistan. Certainly this is not a 
reflection--my opinion is not a reflection on the fine work 
that General Fields and his staff do. But I think, in the 
general sense, that the statutory IGs here present and others 
that work, or do work in Pakistan, have the ability and the 
expertise to provide the oversight if given the resources and 
the funding to do so. Whether the Congress wants to establish 
another Inspector General, a Special Inspector General in that 
area, certainly a political decision will be made. But I, for 
one, think that we as a group can actually provide the 
oversight that is necessary.
    Mr. Tierney. Thank you. I want to thank all of you for your 
testimony here today and your expertise. It has been a 
tremendous help to us as we're trying to perform our job in 
what gets to be a complex and growing universe of events on 
that. So you have our appreciation. We continue to work with 
you and look forward to doing that and wish you all a good rest 
of your day. Thank you.
    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
